Review Of Outpatient Cardiac Rehabilitation Services at Meadowlands Hospital Medical Center,"(A-02-03-01026)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services at Meadowlands Hospital Medical Center," (A-02-03-01026)
January 12, 2004
Complete
Text of Report is available in PDF format (400 KB). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed the Meadowlands Hospital Medical Center
(Hospital) for outpatient cardiac rehabilitation services.  Medical record documentation we examined showed no evidence
that a physician personally sees a patient periodically throughout the program.  In addition, we reviewed a sample
of 10 Medicare beneficiaries who received outpatient cardiac rehabilitation services during calendar year 2001 totaling
$4,584.  We found that medical and billing records provided by the Hospital for eight beneficiaries receiving cardiac
rehabilitation services did not always support services performed.  We recommended that the Hospital work with the
fiscal intermediary to ensure that the Hospital's outpatient cardiac rehabilitation program is being conducted in accordance
with Medicare coverage and billing requirements.